CERTIFICATE OF SERVICE
NO. 19-247
City of Boise
Petitioner(s)
v.
Robert Martin, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the VENICE
STAKEHOLDERS ASSOCIATION AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by mailing
three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to
the following addresses:
Theane Evangelis Kapur
Gibson, Dunn and Crutcher, LLP
333 South Grand Avenue
48th Floor
Los Angeles, CA 90071
(213) 229-7726
tevangelis@gibsondunn.com
Counsel for City of Boise

Michael Evan Bern
Latham & Watkins, LLP
555 11th Street NW, Suite 1000
Washington, DC 20004-1304
(202) 637-1021
michael.bern@lw.com
Counsel for Robert Martin, et al.

Lucas DeDeus

September 25, 2019
SCP Tracking: Lewis-609 Deep Valley Drive, Suite 200-Cover Cream

